Report No. DODIG-2012-082                  May 4, 2012




    DoD Can Improve Its Accounting for Residual Value
        From the Sale of U.S. Facilities in Europe
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
DFAS                          Defense Finance and Accounting Service
DoD FMR                       DoD Financial Management Regulation
DOMFIRA                       Defense Oversees Military Facility Investment
                                Recovery Account
DMOMS                         Deutsche Mark Occupation Mandatory Support
DUSD(I&E)                     Deputy Under Secretary of Defense for Installations
                                and Environment
IG                            Inspector General
IMCOM-E                       U.S. Army Installation Management Command–Europe
OMB                           Office of Management and Budget
PIK                           Payment-In-Kind
U.K. MOD                      United Kingdom Ministry of Defence
USAFE                         United States Air Forces Europe
USAREUR                       United States Army Europe
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial
                                Officer, DoD
USEUCOM                       U.S. European Command
                                INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                              May 4, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER, DOD
               DEPUTY UNDER SECRETARY OF DEFENSE FOR
                 INSTALLATIONS AND ENVIRONMENT
               COMMANDER, U.S. EUROPEAN COMMAND

SUBJECT: 	 DoD Can Improve Its Accounting for Residual Value From the Sale of U.S.
           Facilities in Europe (Report No. DODIG-2012-082)

We are providing this report for your information and use. DoD has closed since 2004,
or anticipates closing by 2015, 138 sites for which it has invested $1.8 billion. DoD
organizations did not maintain adequate controls over $8 million of unused monetary and
nonmonetary proceeds. Also, they did not always perform and document analyses to
support the negotiated $19.4 million settlement amounts for seven installation closures.
Further, lessons can be learned from the return of DoD housing units in the United
Kingdom for which DoD may not recover a fair and equitable share of its $20.3 million
investment. We considered management comments on a draft of this report in preparing
the final report.

The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD; Deputy
Under Secretary of Defense for Installations and Environment; and Commander, U.S.
European Command, comments on the draft of this report conformed to the requirements
of DoD Directive 7650.3 and left no unresolved issues. Therefore, we do not require any
additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                              Amy J. Frontz, CPA
                                              Principal Assistant Inspector General
                                               for Auditing
Report No. DODIG-2012-082 (Project No. D2011-D000FR-0189.000)                      May 4, 2012

               Results in Brief: DoD Can Improve Its
               Accounting for Residual Value From the Sale
               of U.S. Facilities in Europe

What We Did                                              DoD and host nation governments had already
We evaluated whether DoD personnel properly              finalized the residual value settlements this audit
accounted for residual value transactions for            reviewed and thus cannot change them. DoD
facilities returned to host nations in Europe.           needs to improve its processes for the benefit of
                                                         future residual value negotiations. DoD has
                                                         closed since 2004, or anticipates closing by 2015,
What We Found                                            138 sites, with a U.S. investment totaling at least
Although DoD organizations used residual value           $1.8 billion. These closures will require residual
settlement proceeds appropriately, they did not          value settlements.
maintain adequate controls over $8 million of
unused monetary and nonmonetary proceeds.                What We Recommend
DoD personnel did not provide adequate oversight
and monitor and review $7.6 million of unused            USD(C)/CFO should provide results of the review
monetary proceeds. DoD organizations should              of unused monetary proceeds. In addition, the
use the monetary proceeds to offset facility             Deputy Under Secretary of Defense for
expenses. During the audit, the Under Secretary          Installations and Environment (DUSD[I&E]) and
of Defense (Comptroller)/Chief Financial Officer,        the Commander, U.S. European Command
DoD (USD[C]/CFO), personnel began                        (USEUCOM), should revise DoD policy to
researching the unused monetary proceeds and             require greater analysis and documentation to
planned to complete the actions and clean up the         support residual value settlements. Finally, the
remaining balances. The Army also corrected a            Commander, USEUCOM, should assign
$0.4 million overstatement of its nonmonetary            responsibility for pursuing residual value for the
proceed balance.                                         West Ruislip housing units and require greater
                                                         coordination between the Military Departments
Army and Air Force personnel did not always              for future residual value agreements with host
perform and document analyses to support the             nations.
negotiated settlement amounts for seven
installation closures. As a result, they were            Management Comments and
unable to show that the resulting $19.4 million in       Our Response
compensation represented an adequate return on           The USD(C)/CFO, DUSD(I&E), and the
DoD’s investment in those installations. This            Commander, USEUCOM, comments were fully
occurred because of inadequate DoD policy.               responsive to all recommendations. Please see the
                                                         recommendations table on the back of this page.
Lessons can also be learned from the return of the       See the Finding sections for a summary of
West Ruislip housing units in the United                 management comments, and see the Management
Kingdom, which may improve future returns. In            Comments section for the full text.
this instance, several factors contributed to the
current situation in which DoD may not recover a
fair and equitable share of its $20.3 million
investment in housing.
                                                     i
Report No. DODIG-2012-082 (Project No. D2011-D000FR-0189.000)         May 4, 2012

Recommendations Table

         Management                Recommendations         No Additional Comments
                                  Requiring Comment              Required
Under Secretary of Defense      None                       A
(Comptroller)/Chief Financial
Officer, DoD
Deputy Under Secretary of       None                       B
Defense for Installations and
Environment
Commander, U.S. European        None                       B, C.1, C.2, C.3
Command




                                         ii
Table of Contents

Introduction                                                                1


      Audit Objectives                                                      1

      Background on Facilities Returned to Host Nations                     1

      Review of Internal Controls Over the Residual Value Settlement

        Process and Unused Proceeds                                         4


Finding A. DoD Accounting for Unused Residual Value Proceeds

Needs Improvement                                                           5


      DoD Organizations Generally Maintained Adequate Controls

         Over Expended Settlement Proceeds                                  5

      Monetary Proceeds Deposited Into DOMFIRA                              5

      Accounting for and Managing Unused DOMFIRA Funds                      6

      Accounting for Unused Nonmonetary PIK Proceeds in Germany             8

      DoD Should Be Using Dormant DOMFIRA Funds                            10

      Conclusion                                                           10

      Management Has Initiated Corrective Actions to Resolve Unused

         DOMFIRA and PIK Balances                                          10

      Other Matters of Interest: 2008 Germany PIK Advance                  11

      Recommendation, Management Comments, and Our Response                11


Finding B. Residual Value Settlements Lacked Transparency                  13


      Residual Value Settlements Reviewed                                  13

      Insufficient Documentation Exists to Assess the Adequacy
        of Residual Value Settlements                                      14

      Reasons for Inadequate Residual Value Settlement Information         16

      Impact of the Lack of Transparency on Residual Value Settlements     18

      USEUCOM Comments on the Finding and Our Response                     18

      Recommendation, Management Comments, and Our Response                20


Finding C. Lessons Can Be Learned From the Turnover of U.S. Navy Housing 

Facilities to the United Kingdom in 2007                                   22


      Purchase, Renovation, and Turnover of West Ruislip Housing Units     22

      2006 USAFE–U.K. MOD Arrangement Lacked Coordination With DoD         24

      Navy’s Unsuccessful Attempts to Negotiate Residual Value             26

      Navy Attempted to Transfer Followup Responsibility to USAFE          27

      Navy May Never Recoup Its $20.3 Million Investment                   28

      Recommendations, Management Comments, and Our Response               29

Table of Contents (Cont’d)
Appendices
     A. 	Audit Scope and Methodology                                             30

            Use of Computer-Processed Data                                       32

            Prior Coverage of Residual Value Settlements for Facility Closures   33

     B. Residual Value Settlement Process	                                       34


Management Comments

     Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD       39

     Deputy Under Secretary of Defense for Installations and Environment         40

     Commander, U.S. European Command                                            41

Introduction
Audit Objectives
The overall objective was to determine whether DoD personnel properly accounted for
residual value transactions for facilities returned to host nations. Specifically, we
determined whether DoD personnel properly submitted residual value claims for returned
facilities, obtained monetary or nonmonetary consideration, and properly accounted for
the use of residual value amounts. Testing the residual value settlement process involved
evaluating a nonstatistical sample of 12 Army and Air Force facility closures at different
stages of the residual value settlement process over the last 10 years. (See Appendix A
for our scope and methodology and prior coverage of the residual value settlements from
facility closures. See Appendix B for details on the residual value process.)

Background on Facilities Returned to Host Nations
Public Law 101-510, “The National Defense Authorization Act for FY 1991,”
Section 2921, “Closure of Foreign Military Installations,” as amended, specifies that the
Secretary of Defense should ensure that the United States receives consideration equal to
the fair market value of the improvements it made to facilities that will be returned to
host countries. The determination of the fair market value of the improvements returned
to host countries in whole or in part should be handled on a facility-by-facility basis. 1

Residual Value
To the maximum extent possible, DoD personnel should recover residual value for the
U.S. investment in improvements made to facilities returned to host nations. Residual
value is the negotiated monetary or nonmonetary compensation host nations provide to
DoD following the return of DoD-funded facilities or other capital improvements to the
host nation. Since 1991, European host nations have provided DoD $1.1 billion in
compensation for returned facilities. The majority of this compensation, $921.8 million
(85.5 percent), related to facilities returned to the Federal Republic of Germany
(Germany). An additional amount of $44.1 million (4.1 percent) related to facilities
returned in the United Kingdom (U.K.).
     Residual value is typically based
                                                Residual value is typically based on the fair
       on the fair market value of the
                                                market value of the properties regardless of
    properties regardless of what was
                                                what was paid to build them. Therefore, there is
      paid to build them. Therefore,
                                                often a difference between the U.S. investment
    there is often a difference between
                                                in returned facilities and the amount of
      the U.S. investment in returned
                                                compensation received. This difference may
        facilities and the amount of
                                                result when no parties are interested in using the
          compensation received.
                                                improvements, especially when the


1
 Improvements can include new construction of facilities and all additions, improvements, modifications,
or renovations made to existing facilities or to real property. Fair market value of the improvements is
defined to be “the value of improvements … on the basis of their highest use.”

                                                    1

improvements are highly military in nature, which decreases or even eliminates any fair
market value for the improvements. Typically, DoD personnel complete a residual value
settlement agreement with host nation counterparts within 4 to 8 years after returning the
facility. This allows sufficient time for the host nation to sell or find a use for returned
facilities. The actual compensation provided to the United States varies depending on the
specific host nation and can be affected by international agreements, environmental
effects, economic conditions, and the potential reuse of the property.

Host nations can provide residual value in the form of monetary or nonmonetary
compensation. Public Law 101-510 established a special U.S. Treasury account, known
as the Department of Defense Overseas Military Facility Investment Recovery Account
(DOMFIRA), to be used for depositing monetary compensation. Of the $1.1 billion in
total residual value from 1991 to 2011, host nations have provided only $150.9 million
(14 percent) as monetary compensation deposited into DOMFIRA.

Subsequent amendments to Public Law 101-510 included the option for DoD to recover
                              nonmonetary payment-in-kind (PIK) in lieu of monetary
     Of the $1.1 billion in   compensation. PIK is compensation host nations provide
      total residual value    to DoD in the form of construction, repair, and base
      compensation, host      support projects. PIK compensation has since become
    nations have provided     standard practice with some host nations, such that all
         $925.4 million       residual value settlement agreements completed after 1997
     (86 percent) as PIK.     with either Germany or the U.K. were settled for PIK. Of
                              the $1.1 billion in total residual value compensation, host
nations have provided $925.4 million (86 percent) as PIK. 2 Table 1 shows the
distribution of monetary and nonmonetary residual value settlements from 1991 to 2011.

            Table 1. Monetary and Nonmonetary Residual Value Settlements
                      Monetary Settlements        Nonmonetary Settlements
      Years            Quantity         Value (millions)         Quantity           Value (millions)
    1991-1995             7                  $45.6                  1                      $0.9
    1996-2001             9                   98.0                 11                    871.3
    2002-2011             3                    7.2                 11                      53.2
       Total               19                $150.9*                  23                 $925.4
*Difference between the three sets of years and the total row is a result of rounding.




2
  Host nations provided $437.9 million of PIK as a credit for the United States to use toward funding
military construction projects of its choosing. An additional amount of $487.5 million was provided as a
separate type of PIK compensation used to fund specific projects related to the relocation of capabilities
from Rhein-Main Air Base to Ramstein and Spangdahlem Air Bases.

                                                      2

Residual Value Process and Roles and Responsibilities
The process for determining the residual value of a military facility that the United States
has returned to a host nation varies by country. 3 DoD personnel negotiate and conclude
settlement agreements with host nation representatives in accordance with applicable
U.S. law and international agreements to ensure that the United States receives the
maximum amount possible when recovering residual value compensation. Various DoD
organizations have specific roles and responsibilities in the residual value process.

DUSD(I&E) is responsible for providing oversight of the residual value process by
implementing DoD policy and providing more guidance as necessary. Additional
responsibilities include providing policy advice and assistance on environmental matters,
residual value, and PIK actions. DUSD(I&E) is also responsible for reviewing proposals
on the recovery of residual value, including PIK, obtaining coordination from other DoD
officials, and preparing correspondence to the Office of Management and Budget (OMB)
and congressional committees.

USEUCOM is responsible within Europe for reviewing and screening DoD Component
proposals for residual value and PIK actions and forwarding recommendations for action
to DUSD(I&E). Additional responsibilities include developing guidance and policy for
implementing DoD policy on the residual value process and providing oversight and
assistance for the negotiation and implementation of residual value and PIK actions.

The responsibilities of U.S. Army Installation Management Command–Europe
(IMCOM-E) and U.S. Air Force Europe (USAFE) include conducting negotiations and
related residual value matters and maintaining complete records of residual value actions
for Army and Air Force installations, respectively, within Europe. USEUCOM assigns
IMCOM-E and USAFE specific areas to conduct residual value matters within Europe.
Additional IMCOM-E and USAFE responsibilities include informing USEUCOM of
significant developments or problems arising in connection with negotiations or other
related matters and also providing USEUCOM with advance copies of significant
communications pertaining to negotiations and the recoupment of residual value.

Future DoD Facility Returns and Potential Settlements
On June 23, 2010, the Assistant Secretary of Defense (Public Affairs) announced Facility
Closure Round 56, in which DoD would return 23 U.S. Army Europe (USAREUR) sites
to Germany between 2010 and 2015. DoD scheduled these site closures in Germany in
conjunction with a USAREUR force structure change. The closures were to consolidate
personnel onto other DoD bases and return the closed USAREUR facilities in Mannheim,
Heidelberg, and Wiesbaden, Germany, to the German government.




3
 See Appendix B for additional details on the overall residual value process, including the specific
processes within Germany and the U.K.

                                                     3

Overall, DoD has closed since 2004, 4 or anticipates closing by 2015, 138 sites, which are
listed by IMCOM-E and USAFE with a U.S. investment totaling at least $1.8 billion.5
These closures will require residual value settlements.

Review of Internal Controls Over the Residual Value
Settlement Process and Unused Proceeds
Internal control weaknesses existed with the accounting for unused residual value
proceeds and the residual value negotiation process as defined by DoD Instruction
5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29, 2010. DoD
personnel did not provide adequate oversight and review and monitor unused residual
value balances to ensure the timely use of the funds (see Finding A). DoD and
USEUCOM policy did not require specific documentation and analyses to adequately
support the results of residual value negotiations (see Finding B). DoD organizations did
not properly coordinate a residual value agreement with the U.K. (see Finding C). We
will provide a copy of the report to the senior official responsible for internal controls in
USD(C)/CFO, DUSD(I&E), and USEUCOM.




4
 This includes one site returned in 2001, which was excluded from an earlier settlement.
5
 This capital investment figure includes adjustments for inflation and depreciation because that is how the
IMCOM-E tracks capital investment. This value is also dependent on a currency conversion rate based
upon when the data were received, not when the investments were actually made, because that level of
detail for all 138 sites was not available.

                                                     4

Finding A. DoD Accounting for
Unused Residual Value Proceeds
Needs Improvement
DoD organizations generally maintained adequate controls over expended residual value
settlement proceeds and spent the funds for their intended purposes. However, DoD
organizations did not provide adequate oversight and review and monitor $7.6 million of
unused monetary and $0.4 million of unused nonmonetary residual value settlement
proceeds. This occurred because monetary proceeds deposited into DOMFIRA are no-
year funds that do not expire and DoD policy on DOMFIRA funds did not address
monitoring unused funds. For nonmonetary residual values, tracking methods between
responsible parties differed, proceeds were not accurately divided, and rounding errors
contributed to misstatement of amounts. As a result, $7.3 million 6 of unused DOMFIRA
funds sat dormant instead of being used by DoD organizations for facility maintenance,
repair, and environmental remediation at DoD military installations. In addition,
IMCOM-E and USAFE overstated PIK settlement proceeds due from the German
government by $0.4 million.

As a result of this audit, USD(C)/CFO initiated actions to research the unused funds and
planned to complete those actions and reconcile the remaining DOMFIRA balances. In
addition, IMCOM-E and USAFE took action to correct a $0.4 million overstatement of
PIK settlement proceeds due from the German government.

DoD Organizations Generally Maintained Adequate
Controls Over Expended Settlement Proceeds
The Military Departments generally maintained adequate controls over the expended
residual value settlement proceeds and spent the funds for their intended purposes. We
analyzed DOMFIRA expenditures over the last 5 years and a nonstatistical sample of
9 PIK construction projects from the last 10 years. 7 Adequate documentation existed to
support that the funds were properly used for military construction or facility
maintenance in accordance with public law.

Monetary Proceeds Deposited Into DOMFIRA
USD(C)/CFO maintains overall control over the DOMFIRA funds at the DoD level and,
upon request, releases funds to the Military Departments. DoD maintains DOMFIRA
                                  funds in Treasury account 97X5193, with subaccounts
  Because DOMFIRA funds
                                  for the owning DoD organizations. Funds deposited
   do not expire, there is an
                                  into DOMFIRA are no-year funds; that is, they do not
    increased risk that they
                                  expire and remain available for obligation for an
    may sit dormant for an
                                  indefinite period of time. Because DOMFIRA funds do
   extended period of time.

6
  This consists of the $7.6 million total unused Army, Navy and DoD DOMFIRA funds shown in Table 2 

less a $0.3 million erroneous Navy balance that DFAS corrected.

7
  See Appendix A for additional details on the methodology used to review the expended funds.


                                                 5

not expire, there is an increased risk that they may sit dormant for an extended period of
time. In contrast, other appropriations, such as Operation and Maintenance, are only
available for obligation for a period of time as specified in the law, which is generally
1 year, and must be expended within 5 years. The funds can be used to pay for facility
maintenance, repair, and environmental restoration at military installations within the
United States or for facility maintenance, repair, or compliance with applicable
environmental laws at military installations outside the United States that are expected to
be occupied by the Armed Forces for a long period.

The procedures for depositing, accounting, and releasing DOMFIRA funds are addressed
in the DoD Regulation 7000.14-R, “DoD Financial Management Regulation”
(DoD FMR), Volume 2B, Chapter 8, “Facilities Sustainment and Restoration/
Modernization.” The DoD FMR specifies that once funds are deposited into DOMFIRA,
the Military Departments request release of their funds by submitting a memorandum to
USD(C)/CFO. The funds get released into a Military Department’s subaccount through a
funding authorization document. While the DoD FMR addresses procedures for
depositing, accounting, and releasing DOMFIRA funds, it does not address oversight of
the unused DOMFIRA funds.

Once USD(C)/CFO releases the funds to the Military Departments, DoD policy requires
the responsible fundholders to monitor them. Specifically, DoD FMR, Volume 3,
Chapter 8, “Standards for Recording and Reviewing Commitments and Obligations,”
defines an obligation as dormant if no obligations, adjustments, disbursements, or
withdrawals occur within 120 days. The regulation requires fundholders to review all
unliquidated obligations once every 4 months and initiate actions to resolve unliquidated
obligations as appropriate. The fundholders are responsible because they initiate actions
that result in commitments and obligations and, therefore, are in the best position to
determine the accuracy and the status of such transactions.

Of the $150.9 million in residual value payments received from European host nations
and deposited into the DOMFIRA account, $143.7 million (95.2 percent) occurred
between 1992 and 1998. The last two deposits into any Military Department DOMFIRA
account occurred in 2005 and 2007, when the Air Force received $5.2 million from the
Netherlands and Belgium. The significant decrease in DOMFIRA deposits resulted from
a shift from monetary to nonmonetary compensation that occurred between 1995 and
1997. As of June 30, 2011, the DOMFIRA balance was $10.5 million. Because of the
ongoing corrective actions and the unlikelihood of additional deposits, we are not making
any recommendations to improve controls over DOMFIRA.

Accounting for and Managing Unused DOMFIRA Funds
DoD organizations did not maintain adequate controls over unused monetary proceeds
deposited into DOMFIRA; that is, $7.6 million of the $10.5 million in remaining
DOMFIRA balances as of June 30, 2011.




                                             6

Unused DOMFIRA Funds
As a result of this audit, the USD(C)/CFO funds distribution manager attempted a
reconciliation of the $10.5 million DOMFIRA balance as of June 30, 2011, to determine
which Military Departments had funds remaining. Ultimately, the funds distribution
manager obtained a Standard Form 133 (SF-133), “Report on Budget Execution and
Budgetary Resources,” from the Defense Finance and Accounting Service (DFAS) for
account 97X5193 and all subaccounts. 8 The SF-133 report showed two significant
balances, the unobligated balance and the obligated balance unpaid.

     •	 The unobligated balance represents the difference between the total appropriation
        availability and the total obligations.
     •	 The obligated balance unpaid, also referred to as the unliquidated obligation
        balance, represents the amount of obligations that have not been liquidated by
        payments.

We categorized as unused all remaining unobligated and obligated funds that DoD
organizations had not expended. Table 2 shows the status of unused DOMFIRA funds by
DoD organization, as shown on the June 30, 2011, SF-133 report.

        Table 2. Status of Unused DOMFIRA Funds as of June 30, 2011 (millions)
                           Unobligated     Obligated         Unobligated and
     Organization*          Balance         Unpaid          Obligated Unpaid
    Army                      $4.9           $0.1                   $5.0
    Air Force                  2.3            0.6                    2.9
    Navy                       0.3            1.2                    1.5
    DoD                        0.8            0.3                    1.1
     Total                    $8.3           $2.2                  $10.5
* This column identifies the summary-level organization, but individual components may hold the funds.
For example, USAREUR held Army funds and USAFE held Air Force funds.

Monitoring and Reviewing Unused DOMFIRA Funds
USD(C)/CFO and Military Department personnel did not provide adequate oversight and
monitor and review $7.6 million of unused Army, Navy, and DoD DOMFIRA funds.
There were no indications that the Air Force improperly accounted for its DOMFIRA
funds, as it was spending the available funds on a building renovation at Ramstein Air
Base, Germany.

The Army reported the largest DOMFIRA unobligated balance of $4.9 million.
IMCOM-E and USD(C)/CFO provided information showing that the last Army deposit
into DOMFIRA occurred in 1997 and the last release of funds to the Army occurred in


8
  The SF-133 report shows the status of budgetary resources and related financial data and is used for
reviewing apportionments, managing the rate of incurring obligations and outlays, and as a basis for
initiating requests for reapportionments and transfers.

                                                     7

2002. In addition, transaction data on DOMFIRA disbursements showed that the last
Army disbursement occurred in 2008.

In response to a request for details on the unused funds, USAREUR provided only
limited information to show that in January 2010, it had followed up on some outstanding
funds provided to the U.S. Army Corps of Engineers on a military interdepartmental
purchase request from 1997. In March 2010, the U.S. Army Corps of Engineers returned
to USAREUR $824,135 of unobligated funds, and in June 2010, returned $43,594 that
was deobligated from a 1997 contract. As to details on the remaining $4,037,067 unused
balance, USAREUR was unable to provide any information on the contracts or projects
for which it intended to use the funds or why it held the funds for so long. USAREUR
explained that it had limited records on DOMFIRA because of changes in the European
force structure and force reduction. In the absence of specific details, USAREUR could
not show that it had adequately monitored the funds and reviewed them in a timely
manner. In August 2011, USAREUR initiated action to return the entire balance to
USD(C)/CFO. The Army subsequently informed USD(C)/CFO that it was reviewing
potential uses for the funds through its Assistant Chief of Staff for Installation
Management. In January 2012, USD(C)/CFO provided a detailed list of projects in
Germany that the Army intended to fund using its $4.9 million of unobligated DOMFIRA
funds.

USD(C)/CFO and DFAS personnel conducted research on the unused $1.5 million Navy
DOMFIRA balance. The USD(C)/CFO funds distribution manager stated that the last
distribution of DOMFIRA funds to the Navy occurred in 2002, and transaction data on
DOMFIRA disbursements showed that the Navy has not disbursed funds since 2006. As
a result of this audit, DFAS found that $323,794 of the $330,716 Navy unobligated
balance was erroneous and resulted from a journal voucher that DFAS personnel
improperly processed in February 2008. DFAS reversed the voucher in December 2011,
leaving an unobligated Navy balance of $6,922. Initial research DFAS performed on the
nearly $1.2 million obligated unpaid balance indicated that a portion of it could also be
erroneous. The research was ongoing at the time of this report.

The USD(C)/CFO funds distribution manager was unable to provide details on the
$1.1 million unused DoD DOMFIRA funds and agreed to conduct research to determine
to whom the funds belonged and whether or not a valid requirement still existed for them.
USD(C)/CFO requested assistance from DFAS, and the research was ongoing at the time
of this report.

Accounting for Unused Nonmonetary PIK Proceeds
in Germany
IMCOM-E and USAFE personnel did not adequately account for unused PIK proceeds
that Germany held. Specifically, IMCOM-E and USAFE based their tracking of PIK
funding due from Germany on a total entitlement which was $0.4 million more than the
amount Germany actually agreed to provide.



                                            8

For PIK proceeds associated with settlements of returned Army and Air Force facilities in
Germany, each Service maintains its own tracking method for the funds. IMCOM-E
maintains the Army PIK tracking method and USAFE maintains the Air Force PIK
tracking method. These tracking methods consist of manual ledgers and spreadsheets,
not formal information systems. In Germany, all U.S. facility construction is jointly
managed by a U.S. military contracting office and a German contracting office. These
two offices jointly solicit and award a contract and in the case of a project funded through
PIK, the German government pays the invoices from German bank accounts once both
contracting offices approve them.

In 1995, the United States and Germany entered into the first residual value settlement
using PIK. The United States and Germany have since entered into a total of
18 agreements entitling the United States to PIK compensation totaling $393.8 million. 9
In 2008, Germany advanced the U.S. Army an additional $59.9 million in PIK funding to
be offset against future residual value settlements. 10 In total, Germany has agreed to
provide up to $453.6 million 11 in PIK funding, and in June 2011, USAFE and IMCOM-E
reported total remaining PIK proceeds of $11.4 million.

The PIK overstatement occurred for two reasons. IMCOM-E and USAFE PIK tracking
methods differed on how the proceeds of joint settlements were divided between them.
Between 1995 and 2000, IMCOM-E and USAFE entered into joint settlements with
Germany for sites that DoD returned between FY 1991 and FY 1996. IMCOM-E and
USAFE then divided the settlement proceeds, and each tracked its own portion of the
funds. 12 However, IMCOM-E and USAFE did not divide the proceeds accurately,
resulting in the double-counting and overstatement of approximately $0.5 million in PIK
proceeds.

Additionally, IMCOM-E repeatedly rounded the amounts, resulting in a net
understatement of PIK funding by about $0.1 million. The IMCOM-E PIK tracking
method lists what IMCOM-E believes the Army is entitled to from each settlement,
rounded to either the nearest 10,000 or 100,000 euros. The tracking method then adds the
settlement amounts together and then further rounds this total down to the nearest
100,000 euros. These two levels of rounding resulted in errors of approximately
$0.5 million. We netted out the instances where the rounding created understatements
and overstatements of the Army’s PIK entitlements, and the rounding issues resulted in a
$0.1 million understatement of PIK funding the Army is due from Germany. Overall, the
$0.5 million overstatement combined with the $0.1 million understatement resulted in a
net $0.4 million overstatement of PIK proceeds.


9
  This excludes the $447.5 million Germany provided for specific projects related to the relocation of

facilities from Rhein-Main Air Base to Ramstein and Spangdahlem Air Bases.

10
   See the Other Matters of Interest section at the end of this Finding section for details on this PIK

advance.

11
   Difference between total PIK funding value ($453.6 million) and the sum of the PIK settlement

($393.8 million) and PIK advance ($59.9 million) values occurs due to rounding.

12
   Although IMCOM-E currently maintains the tracking system, when some of the settlements were signed

and divided, USAREUR was managing the PIK for the Army.


                                                   9

DoD Should Be Using Dormant DOMFIRA Funds
USD(C)/CFO and the Military Departments should use the dormant DOMFIRA funds for
facility maintenance, repair, and environmental remediation at DoD military installations.
In January 2011, USD(C)/CFO provided a detailed list of projects in Germany that the
Army intended to fund using its remaining $4.9 million of DOMFIRA funds. In addition,
$2.3 million of unused Navy and DoD funds were under review and could be potentially
returned and used.

Conclusion
DOMFIRA activity has slowed down significantly over the past decade, and few, if any,
deposits into the account are expected in the future. Of the $150.9 million in monetary
payments, $143.7 million (95.2 percent) occurred before 1999, and a significant decrease
in monetary payments resulted from a shift from monetary to nonmonetary PIK
compensation that occurred between 1995 and 1997. Nonmonetary PIK compensation
has since become standard practice with some host nations, such that all residual value
settlement agreements completed after 1997 with either Germany or the U.K. were settled
for nonmonetary PIK.

In addition, the inadequate accounting for monetary residual value proceeds we identified
in this audit primarily involved unused Army and Navy DOMFIRA funds that
USD(C)/CFO distributed to them in 2002. A lack of documentation made it difficult to
determine the specific organizations and individuals who did not monitor and review the
funds in accordance with DoD policy.

In support of this audit, USD(C)/CFO initiated actions to review the remaining
DOMFIRA balances. Considering all of these circumstances, we are not recommending
any additional controls over the DOMFIRA funds.

Management Has Initiated Corrective Actions to Resolve
Unused DOMFIRA and PIK Balances
As a result of this audit, USD(C)/CFO initiated corrective actions to review the unused
DOMFIRA balances. In addition, DFAS corrected a portion of the erroneous unused
Navy balances and was conducting additional research on the remaining Navy balances.
Also as a result of this audit, IMCOM-E and USAFE real estate personnel met in October
2011 to resolve the overstatement of PIK funding due from Germany. IMCOM-E
tentatively reduced its PIK balance in its tracking method by $0.4 million, pending
ongoing reconciliation efforts with the German government. This will resolve the
double-counting of joint settlements and rounding issues.

We do not expect overstatements to recur because IMCOM-E and USAFE were no
longer settling residual value claims jointly. As a result, we are not recommending any
further action on these issues.




                                           10

Other Matters of Interest: 2008 Germany PIK Advance
IMCOM-E requested a PIK advance from the German government based on anticipated
residual value compensation for future installation returns within Germany. In August
2008, German officials agreed to make approximately $59.9 million available to
IMCOM-E as advanced PIK, to be offset by future facilities that IMCOM-E returns to
Germany. At the time of the audit, IMCOM-E had spent all but $7.2 million of the
advanced PIK and had not concluded a settlement with Germany since receiving the
advance.

Public Law 101-510, as amended, does not specifically require DoD personnel to notify
either Congress or OMB of any advanced PIK amount associated with anticipated
residual value compensation from future facility returns. DoD personnel are only
required to notify Congress before entering into residual value negotiations involving the
U.S. acceptance of PIK and also before concluding a settlement agreement for the U.S.
acceptance of PIK. In addition, DoD personnel are only required to notify OMB before
concluding a settlement agreement with U.S. capital investments at the returned facility
in excess of $10 million. Accordingly, DoD personnel did not make any notifications
upon receiving the advanced PIK. DUSD(I&E) and USEUCOM personnel explained
that because the advanced PIK was not associated with a negotiated settlement
agreement, they were not required to notify Congress or OMB.

In its final DoD Annual Residual Value Report to Congress in 2006, DoD reported that
Germany was no longer advancing PIK because the facility returns had slowed down
significantly. However, Germany subsequently advanced $59.9 million of PIK in 2008.

We are discussing the 2008 PIK advance in this audit report as an “other matter of
interest” because DoD no longer provides Annual Residual Value Reports to Congress.
Congress may expect DoD to use anticipated PIK compensation obtained from future
facility closures to fund military construction or facility improvement projects at the time
of, or after, the settlements. However, Germany has already provided compensation
through advanced PIK, and IMCOM-E has already used a majority of the PIK
compensation on existing military construction or facility improvement projects. Before
it will receive additional PIK compensation from Germany, DoD has to liquidate the
$59.9 million PIK advance through future facility closures.

Recommendation, Management Comments, and
Our Response
A. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, provide DoD IG with the results of the review of unused
monetary proceeds remaining in the DoD Overseas Military Facilities Investment
Recovery Account.

USD(C)/CFO Comments
The Deputy Comptroller, responding for the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, DoD, agreed with the recommendation and agreed

                                             11

to provide DoD IG with the results of the review of unused monetary proceeds remaining
in the DoD Overseas Military Facilities Investment Recovery Account within 90 days of
the date of this report. The Deputy Comptroller also stated that his office established an
execution plan to obligate $6 million of the remaining $6.8 million unobligated balance
by September 30, 2012. In addition, he stated that his office plans to revise the DoD
FMR by June 30, 2012, to address oversight of unobligated balances.

Our Response
The comments from the Deputy Comptroller were responsive, and the planned actions
met the intent of the recommendations.




                                            12

Finding B. Residual Value Settlements
Lacked Transparency
IMCOM-E and USAFE personnel did not sufficiently document residual value
settlements for seven installation 13 closures. Specifically, personnel did not always
perform and document the following analyses to support the negotiated settlement
amounts:

     •	 evaluation of host nation residual value claims, including the use of independent
        assessments of the fair market value of the installation;
     •	 review of the calculation methodology used to determine the values for the land
        and capital improvements; and
     •	 assessment of the reasonableness of the offsetting environmental remediation
        costs.

This occurred because DoD and USEUCOM policy did not require specific
documentation and analyses that negotiators would need to complete and maintain to
improve and provide support for residual value negotiations. As a result, IMCOM-E and
USAFE personnel were unable to show that negotiations for the seven installation
closures, resulting in $19.4 million in nonmonetary compensation, represented an
adequate return on DoD’s investment in those facilities.

Although DoD has finalized the completed settlements and thus cannot change them,
improvements to the residual value settlement process could benefit future negotiations.
By having more detailed and accurate information, DoD negotiators would be in a
stronger bargaining position when they enter into future residual value negotiations.
Specifically, there are 138 sites, with a U.S. investment totaling at least $1.8 billion, that
DoD has either closed or anticipates closing by 2015 that will require residual value
settlements.

Residual Value Settlements Reviewed
We reviewed the negotiated residual value amounts for seven installation closures that
resulted in nonmonetary compensation totaling $19.4 million. The U.S. capital
investment in these installations totaled $249 million. As part of the residual value
process, the host nation sells or finds a use for the installations. Negotiations result in a
settlement amount that is affected by the allocation of the value of land, capital
improvements, and environmental costs. The seven installation closures included six in
Germany and one in the U.K. IMCOM-E was responsible for three closures and USAFE
was responsible for four closures. See Table 3 for details on the seven facility closures.




13
  An installation is a grouping of facilities, located in the same vicinity, that support particular DoD
functions.

                                                      13

             Table 3. Details on the Seven Installation Closures Reviewed
                                  Responsible                    Capital                          Residual
                                      DoD                     Investment*                           Value
          Installation            Component Location            (millions)                        (millions)
Bad Kreuznach
Family Housing                     IMCOM-E        Germany         $26.41                             $3.46
Bitburg and Sembach Air
Bases                                USAFE        Germany         138.50                               3.10
Frankfurt Contingency
Hospital                             USAFE        Germany          50.78                               5.57
Jever Air Base and
Gut Husum Ammunition
Storage                              USAFE        Germany           2.75                               2.00
Kreuznach Hospital                 IMCOM-E        Germany          11.53                               0.04
Royal Air Force Chelveston
and Molesworth-Brington                            United
Family Housing                       USAFE        Kingdom            5.33                             4.59
Rose Barracks                      IMCOM-E        Germany          13.65                              0.65
  Total                                                          $248.95                            $19.41
* This is the original cost of the investments and does not include adjustments for inflation or depreciation.

Insufficient Documentation Exists to Assess the
Adequacy of Residual Value Settlements
IMCOM-E and USAFE personnel did not sufficiently document seven residual value
settlements. IMCOM-E and USAFE personnel did not always perform and document
analyses associated with the evaluation of host nation residual value claims. This
included the use of independent appraisals, the review of calculation methodologies, and
the assessment of offsetting environmental remediation costs.

Evaluation of Host Nation Residual Value Claims, Including the
Use of Independent Appraisals
IMCOM-E and USAFE personnel did not always obtain documentation to support a host
nation’s claims in residual value negotiations. Specifically, IMCOM-E and USAFE
personnel did not conduct or obtain independent appraisals or document the reasons why
they did not perform appraisals to support the adequacy of the host nation’s sales price.
In addition, IMCOM-E and USAFE personnel did not consistently obtain contracts for
the sale of installations, which should be available whenever a host nation sells a
property.

An independent appraisal is an analysis of specific market data using industry-accepted
methods to determine the most probable value a property should realize in a competitive
and open market. IMCOM-E personnel acknowledged that their staff appraiser position
was vacant and USAFE personnel stated that they did not have a staff appraiser. The

                                                     14

lack of independent appraisals makes it difficult for IMCOM-E and USAFE personnel to
show that the settlement amounts represented an adequate return on DoD’s investment in
the returned installations. Obtaining this documentation would increase the transparency
of the settlement process.

For example, the three IMCOM-E settlements were based on a bulk sale. An IMCOM-E
negotiator’s written summary showed that Germany sold the Bad Kreuznach installations
for $16 million. German officials originally offered $1.8 million as compensation. The
negotiator’s summary explained that “intensive detailed negotiations” eventually
increased the offer to $4.4 million, which the United States accepted. There was no
supporting documentation or description to justify either of the two offers; no appraisals
of the buildings or the land value, no calculation supporting the value associated with
Army-funded improvements, or even any details on the extent of the negotiations. So,
although IMCOM-E personnel negotiated more compensation than originally offered,
there was no justification to explain the final settlement and whether the amount was
reasonable.

An independent appraisal may not always be necessary or cost-effective. Specifically, if
the United States determines that installations do not have an economic or military reuse
because their location or physical condition is not desirable on the open market, then an
appraisal may not be necessary. For example, a site visit to the Kaiserslautern family
housing in Germany supported USAFE’s assessment that the installation did not have any
economic or military reuse. The German government sold the Kaiserslautern family
housing to a private investor, who subsequently had it demolished. In this instance,
USAFE would not be entitled to any residual value compensation, and an independent
appraisal would not have benefited the negotiations.

Review of the Calculation Methodology Used to Determine the
Value of the Land and Capital Improvements
IMCOM-E and USAFE personnel did not always review the calculation methodology
used to determine the value of the land and capital improvements based upon calculations
agreed upon with the German government. Specifically, IMCOM-E and USAFE
personnel did not document the calculation methodology determinations of the U.S.­
funded facility improvement costs and offsetting land value and the German government
and North Atlantic Treaty Organization improvement costs.

For example, USAFE personnel did not document the calculation methodology used to
determine the percentage value of various U.S. improvements to German-funded hospital
buildings when calculating the initial $7.6 million residual value claim for the Frankfurt
Contingency Hospital. Specifically, USAFE personnel only prepared a spreadsheet that
listed the various improvements to the hospital buildings and the applied percentage
value of the improvements without any support for the determination of the applied
percentage values, which were less than the agreed-upon percentage amounts between the




                                            15

United States and Germany. 14 USAFE personnel ultimately accepted a settlement
totaling $5.6 million. However, USAFE personnel did not sufficiently document the
settlement by obtaining details supporting the applied percentage value of the
improvements.

Assessment of the Reasonableness of Offsetting Environmental
Remediation Costs
USAFE personnel did not always sufficiently document environmental remediation costs
claimed by Germany. This includes verification of contracts or invoices for the
remediation of environmental damages 15 if the German government completed
remediation before the residual value settlement. For the one USAFE settlement with
environmental remediation costs, USAFE personnel trusted the information the German
government provided, without verifying the amounts to supporting contracts or invoices.

For example, USAFE personnel did not support $1.9 million in environmental costs
claimed by the German government to offset the residual value compensation for the
Bitburg and Sembach Air Base closures. Specifically, of the $1.9 million, USAFE
personnel provided a handwritten ledger for $1.6 million in environment costs, written in
German, as support for the actual costs incurred. However, USAFE personnel did not
provide sufficient evidence to support whether the German government actually incurred
the $1.6 million in environmental costs that it claimed.

Reasons for Inadequate Residual Value
Settlement Information
DoD and USEUCOM policy did not specify the required steps personnel should follow,
the documentation they should prepare, and the time period for retaining the
                                      documentation. The lack of DoD and USEUCOM
  DoD and USEUCOM policy did requirements leaves the level of analysis and
    not specify the required steps    documentation performed up to the discretion of
     personnel should follow, the     the personnel managing the residual value
      documentation they should       settlement process. USEUCOM and IMCOM-E
  prepare, and the time period for real estate personnel stated they became
     retaining the documentation.     increasingly comfortable over time with the
                                      residual value negotiation process as relationships
developed with their host nation counterparts. As a result, they devoted less effort to
justifying and documenting the final settlement amounts.




14
   See Appendix B for additional details on the calculation methodology used to determine the values for
the land and capital improvements.
15
   Per the North Atlantic Treaty Organization Status of Forces German Supplementary Agreement, the
German government can offset any residual value amount made to U.S. forces with claims for
environmental remediation costs.

                                                    16

Current DoD Policy Lacks Specific Requirements
DUSD(I&E) and USEUCOM personnel established policy for the residual value
negotiation and settlement process through DoD Instruction 4165.69, “Realignment of
DoD Sites Overseas,” April 6, 2005, and USEUCOM Instruction 4101.02, “Plans and
Policy–Negotiation for the Recovery of Residual Value of U.S. Excess Facilities Located
in Foreign Countries,” May 12, 2008. Specifically, the policies provide guidance for the
return of U.S. facilities to host nation governments and also the negotiation for the
recovery of residual value compensation. However, the policies do not explicitly specify
the documentation that IMCOM-E and USAFE personnel should prepare and retain.

Although DoD Instruction 4165.69 and USEUCOM Instruction 4101.02 do address some
residual value negotiation and reporting requirements, they do not detail the specific steps
personnel should complete when negotiating a settlement. In addition, the policies do not
address the actual forms and documentation personnel need to prepare when entering into
negotiations, concluding settlements, and reporting residual value actions. Specifying the
steps and documentation would provide consistency among DoD components and
continuity during staff turnover.

These policies also do not address any retention period for maintaining the supporting
                                              documentation. Although policy
  DoD and USEUCOM policies need to            requirements exist for real estate and
   address the residual value process in      contract documentation, DoD and
      greater detail by specifying the        USEUCOM policies need to address the
     documentation personnel should           residual value process in greater detail by
         retain and for how long.             specifying the types of documentation
                                              personnel should retain and for how long.

Personnel Need to Devote More Effort to
Documenting Settlements
USEUCOM, IMCOM-E, and USAFE personnel stated they developed a trusting
relationship with their host nation counterparts. In addition, IMCOM-E personnel stated
they became increasingly comfortable with the settlement process. As a result, they
devoted less effort to documenting and justifying the settlements. Documentation on
residual value settlements completed in the early 1990s was more extensive than the
documentation associated with more recent settlements.

Additionally, IMCOM-E personnel acknowledged that the negotiation process lasted
such a long time that they were not always documenting events thoroughly. USAFE
personnel also stated that they did not verify, but trusted the word of their host nation
counterparts. IMCOM-E and USAFE personnel need to perform sufficient reviews to
ensure residual value negotiations are adequately documented, sufficient audit trails exist,
and appraisals are accurate.




                                            17

Impact of the Lack of Transparency on Residual
Value Settlements
IMCOM-E and USAFE personnel were unable to show that residual value negotiations
for the seven installation closures were sufficient and the $19.4 million obtained in
                                            nonmonetary compensation represented an
    IMCOM-E and USAFE personnel             adequate return on DoD’s investment in those
    were unable to show that residual       facilities. Although DoD has finalized the
     value negotiations for the seven       completed residual value settlements, and thus
  installation closures were sufficient     cannot change them, future settlements could
    and the $19.4 million obtained in       benefit from improvements to the current
       nonmonetary compensation             processes. Specifically, the 138 sites with a
   represented an adequate return on        U.S. investment totaling at least $1.8 billion,
  DoD’s investment in those facilities.     which DoD has closed since 2004 or
anticipates closing by 2015, will require residual value settlements.

DoD needs to improve its policy on the residual value process because key DoD civilian
real estate positions in foreign areas will eventually turn over, and replacement personnel
will not have sufficient experience or guidance to properly negotiate and document
residual value settlements. USEUCOM, IMCOM-E, and USAFE personnel stated that
the turnover of DoD civilian real estate positions in foreign areas could occur sooner than
expected because of a proposed change to the current DoD policy that limits DoD civilian
positions in foreign areas to a 5-year tour, with the possibility of a single, 2-year
extension. The current policy had allowed for exemptions for positions that require
frequent contact with officials of the host nation and also detailed knowledge of the
culture, morals, laws, customs, and government processes of the host nation. However,
USEUCOM personnel indicated the final version of the draft policy will remove this
exemption. Turnover of these key personnel, along with the current lack of detailed
policy, may result in their replacements not being able to effectively handle future
residual value settlements.

Additionally, by having more detailed and accurate information, DoD negotiators will be
in a stronger bargaining position when they enter into residual value negotiations.
Having analyses such as independent assessments of the fair market value of the returned
installations helps negotiators ensure that proposed settlement amounts are adequate. By
having specific policy detailing the steps personnel need to complete and the
documentation they need to prepare and retain, DoD can help mitigate the knowledge
drain resulting from the IMCOM-E and USAFE personnel turnover, strengthen DoD’s
position in future negotiations, and ensure that personnel sufficiently negotiate and
document future settlements.

USEUCOM Comments on the Finding and Our Response
USEUCOM Comments
The USEUCOM Chief of Staff, responding for the Commander, USEUCOM,
commented on the finding that DoD organizations did not always perform and document

                                            18

analyses to support the $19.4 million settlement amounts for seven installation closures.
He stated that the negotiators’ reports for each settlement provide the analyses
documenting how they arrived at the settlement amounts. The Chief of Staff provided
the negotiators’ reports with his comments.

Our Response
We acknowledge that USAFE and IMCOM-E negotiators prepared reports for the seven
settlements. However, we disagree that their reports provide sufficient analyses
documenting how they arrived at the settlement amounts. As for the reports the Chief of
Staff provided with his comments, we had previously obtained and reviewed all of them
during the audit and considered them in preparing our draft report.

For example, on page 15 of this report, we specifically cite the lack of sufficiency
associated with the negotiators’ summary report on the settlement for the Bad Kreuznach
installations. In this instance, the report lacked:

   •	 supporting documentation or descriptions to justify either of the two offers;
   •	 appraisals of the buildings or the land value;
   •	 calculations supporting the value associated with Army-funded improvements;
      and
   •	 details on the extent of the negotiations.

So, although IMCOM-E personnel negotiated more compensation than the host nation
originally offered, there was no justification to explain the final settlement and whether
the amount was reasonable.

As part of his comments, the Chief of Staff provided the same negotiators’ report that
IMCOM-E provided during the audit, but he did not include any additional supporting
documentation. We had similar concerns with the six additional negotiators’ reports that
we previously reviewed and that the Chief of Staff provided to us again without any
additional supporting documentation.

The negotiators’ reports are a good starting point for negotiators to document the residual
value settlement process and the agreed-upon settlement amounts. However, they need to
include additional supporting information to allow for an independent party that was not
present at the negotiations to determine the adequacy of the settlement amounts.

As discussed below, the Assistant DUSD(I&E) and the USEUCOM Chief of Staff agreed
to update their respective policies to require that future residual value settlement
negotiations analyze and document how the negotiators determined the residual value
settlement amount. These analyses and documentation, if properly prepared and retained,
will supplement the negotiators’ reports and provide more sufficient support for residual
value settlement amounts.




                                             19

Recommendation, Management Comments, and
Our Response
B. We recommend that the Deputy Under Secretary of Defense for Installations and
Environment and the Commander, U.S. European Command, revise DoD
Instruction 4165.69 and U.S. European Command Instruction 4101.02, respectively,
to require that future residual value settlement negotiations analyze and document
how the residual value settlement amount was determined, to include at a
minimum:

   •	 results of an independent appraisal of the facility’s value or the reasons why
      it was deemed not worth performing one;

   •	 analysis of any agreed-upon calculation methodology used to determine the
      values for the land and capital improvements;

   •	 evaluation of any environmental remediation being claimed for
      reasonableness, if there is an offsetting effect on the residual value received;
      and

   •	 description of specific documents that should be maintained supporting
      residual value settlements and how long these documents should be
      maintained.

DUSD(I&E) Comments
The Assistant Deputy Under Secretary of Defense for Installations and Environment,
responding for the Deputy Under Secretary of Defense for Installations and Environment,
agreed with the recommendation and stated that his office would issue guidance directing
implementation of the additional requirements this year and would incorporate the
guidance into DoD Instruction 4165.69, “Realignment of DoD Sites Overseas.”

USEUCOM Comments
The USEUCOM Chief of Staff, responding for the Commander, USEUCOM, neither
agreed nor disagreed with the recommendation. He stated that USEUCOM planned to
revise USEUCOM Instruction 4101.02 in summer 2012 to include details on how
negotiators determine the residual value settlement amounts, including the four items
stated in Recommendation B.

In addition, he provided specific comments on the preparation of a formal appraisal
report on properties the United States turns over to host nations. He stated that appraisals
would only be practical if sufficient funding existed to complete the appraisal and if the
terms of the pertinent Status of Forces Agreement or agreements allowed for their use
during negotiations. Further, he stated that U.S. appraisals would be appropriate when
the German government retained a property for its own reuse.



                                            20

The Chief of Staff stated that ongoing operational requirements took priority over
appraisal work and that he expected the staff available to perform appraisal work in the
future would be scarce. He further stated that since the “net proceeds of sale, if any”
clause, in the NATO German Status of Forces Agreement, Supplementary Agreement
Protocol of Signature, Article 52, was the basis for residual value agreements in
Germany, obtaining an additional U.S. appraisal was often an unnecessary step that
would have no impact on the residual value negotiation.

Our Response
The comments from the Assistant DUSD(I&E) and USEUCOM Chief of Staff were
responsive, and the planned actions met the intent of the recommendations.




                                            21

Finding C. Lessons Can Be Learned From
the Turnover of U.S. Navy Housing Facilities
to the United Kingdom in 2007
The U.S. Navy turned over 63 newly renovated family housing units at West Ruislip to
the U.K. Ministry of Defence (U.K. MOD) in September 2007 and has yet to receive any
residual value compensation. Many lessons can be learned from the following factors
that contributed to this situation.

     •	 The Navy purchased housing units in 1994 but was unable to reach an agreement
        then with the U.K. on how residual value would be handled upon return of the
        property.

     •	 USAFE signed an arrangement with the U.K. in 2006, specifying how residual
        value would be handled for returned U.S. housing facilities. However, USAFE
        did not coordinate the agreement with USEUCOM or the Navy to protect the
        Navy’s investment.

     •	 The Navy requested assistance from USEUCOM and also made numerous
        unsuccessful attempts to negotiate residual value, but the U.K. cited its
        arrangement with USAFE, which did not require any residual value compensation
        until U.K. sold the housing units on the open market.

     •	 The Navy eventually gave up pursuing residual value and issued a memorandum
        to USAFE in September 2009 to transfer followup responsibility. However,
        USAFE did not accept responsibility, and neither USAFE nor the Navy followed
        up on the issue until we brought it to their attention during this audit.

At the time of this audit, U.K. MOD personnel occupied the West Ruislip housing units,
and DoD could only receive residual value based on a percentage of the sales price when
and if the U.K. MOD sold them. The residual value could be up to 50 percent of the sales
price, but could also be nothing if the site was demolished for redevelopment. Therefore,
the Navy may never recover a fair and equitable share of the $20.3 million 16 it invested to
purchase and renovate the 63 housing units.

Purchase, Renovation, and Turnover of West Ruislip
Housing Units
Purchase of West Ruislip Housing
In the early 1980s, U.K. MOD leased approximately eight acres at West Ruislip for a
nominal amount to a financial trust for a term of 125 years for Navy family housing. Per



16
  The $20.3 million equals the $11.4 million purchase of housing units in 1994 and the $8.9 million
renovation costs completed in 2005.

                                                   22

that agreement, the trust funded construction of 81 housing units on the property and
subleased the land and housing to the Navy for a term of 10 years, with 15 additional
1-year options. The trust also granted a purchase option for the 125-year lease. In 1993,
the Navy studied the cost of exercising 1-year lease options through 2009 versus the cost
of purchasing the housing and the lease through 2110. It determined that purchasing the
housing and the lease was the more cost-effective alternative for obtaining housing for
Navy personnel in the London area. West Ruislip is 10 miles northwest of London and
benefits from excellent transportation links and is within walking distance of the West
Ruislip railway station.

During negotiations for the purchase of the West Ruislip housing in 1994, the U.K. MOD
Secretariat, Air Staff, and a Navy real estate contracting officer drafted a “side
agreement” that addressed how the Navy would recover residual value in the event that it
returned the housing to the U.K. MOD. The proposed side agreement stipulated that
upon return, the U.K. MOD would sell the property and the United States would be
entitled to 100 percent of sale proceeds attributable to the value of housing, minus the
value of the land and any costs of the sale. For unknown reasons, the parties did not
finalize the proposed side agreement.

The proposed agreement occurred 17 years before this audit, and the responsible Navy
real estate contracting officer has since retired. Current Navy real estate officials did not
participate in the 1994 negotiation and could not explain why the Navy and U.K. MOD
never executed the proposed agreement. In June 1994, on the Navy’s behalf and
expense, the U.K. MOD purchased the housing and the lease for $11.4 million, and the
Navy also paid all associated legal costs.

Renovations and Turnover of West Ruislip Housing
The Navy completely renovated all of the West Ruislip housing units before turning them
over in September 2007. In October 2000, the Navy requested $8.7 million from the
FY 2003 Military Construction budget to perform whole-house renovations. The project
identified improvements, repairs, and site work for the officer and enlisted homes built in
the early 1980s that had not received any major repairs or improvements since
construction. Without the renovations, the housing would become unsuitable for
occupancy within 4 to 6 years. Specifically, windows and doors were in poor condition,
electrical systems needed to be updated, and flooring and wood trim were heavily painted
and needed replacement. Navy real estate officials stated that completion of the final
renovations occurred in October 2005, at a total cost of approximately $8.9 million,17 and
resulted in 63 two-story townhomes because some smaller units were combined. Navy
real estate officials also stated that U.S. personnel never occupied many of the renovated
units.




17
  Navy personnel provided summary-level cost data, but were unable to locate the actual contract files for
the renovations.

                                                    23

Navy real estate personnel visited the housing units and took pictures in March 2007. As
Figure 1 indicates, the housing was in excellent, like-new condition upon return. On
March 30, 2007, the Assistant Secretary of Defense for Public Affairs announced that the
United States would cease operations at West Ruislip 18 and in September 2007, the Navy
turned over the housing units to the U.K. MOD.

            Figure 1. Renovated Housing Units at West Ruislip, March 2007




2006 USAFE–U.K. MOD Arrangement Lacked
Coordination With DoD
USAFE personnel stated that agreements established before 2006 between the United
States and the U.K. provided for residual value for family housing returned to the U.K.
In 2006, USAFE formalized an arrangement titled, “Memorandum of Arrangement
Concerning the Settlement of Residual Value Claims for US-Funded Housing and former
US-occupied MOD Family Quarters Returned to MOD and Sold after 31 December
1999.” The arrangement covers all U.S.-funded housing and all former U.S.-occupied
MOD family quarters that have been improved with U.S. investments. The arrangement



18
  Navy documentation shows that the closure decision was initially considered in June 2005, which was
around the time that the renovations were nearing completion.

                                                  24

more precisely details the determination of residual value payments, including the
following:

          •   50 percent of the net proceeds of sales for U.S.-funded housing built on the
              U.K. MOD’s land;

          •	 10 percent of the net proceeds of sales of sites sold to demolish U.S.-funded
             housing for redevelopment with use of existing utility services;

          •	 18.75 percent of proven U.S. expenditures on improvements to MOD
             housing made within 10 years of sale; and

          •	 no payment for U.S.-funded housing or improvements to MOD housing
             demolished to allow redevelopment of the site.

The arrangement also provides, “The U.K. will, if possible, arrange for the sale of
properties eligible for residual value payments when they become surplus to requirements
and are made available for disposal, in accordance with current Her Majesty Treasury
guidelines.”

The arrangement was signed by the U.S. Air Force Director of Installations and Mission
Support and a U.K. MOD official and became effective November 2, 2006. 19 USAFE
officials stated that they did not formally coordinate the arrangement with Navy officials
in accordance with USEUCOM policy. In addition, a USEUCOM official stated that
USEUCOM had no contact with USAFE or U.K. MOD officials in negotiations that led
to the arrangement.

At the time the arrangement was signed, Navy and USAFE both had residual value
responsibilities in the U.K. USEUCOM Directive 62-3, “Real Estate and Utilities: Real
Estate Operations,” April 2004, specified that USEUCOM would assign one component
as the real estate Lead Service with overall responsibility for real estate operations in a
specific geographic area for all DoD components and agencies. The Lead Service was
responsible for coordinating with other Service components and establishing real estate
working arrangements.

The directive designated Navy Europe as the Lead Service for Navy activities within the
London area, which included the West Ruislip housing. The directive designated USAFE
as the Lead Service for the U.K., excluding Navy activities in the London area.
USEUCOM Instruction 4101.01 20 replaced USEUCOM Directive 62-3 in 2008 and
designated USAFE as the Lead Service for all the U.K.




19
   The Air Force Director of Installations and Mission Support who signed the arrangement on behalf of the

United States retired in January 2008.

20
   USEUCOM Instruction 4101.01, “Real Estate and Utilities: Real Estate Operations,” November 2008.


                                                   25

Whether the U.K. MOD would have accepted additional terms that would have protected
the Navy’s investment is not certain. Also, the fact that the arrangement was signed
nearly 5 years before this audit made it difficult to determine all the factors that led to its
outcome. However, the agreed-upon terms in the arrangement were not favorable to the
Navy’s investments in West Ruislip and differed from the terms that the Navy proposed
in its 1994 draft side agreement. Most significantly, the 2006 arrangement only requires
that the U.K. MOD sell the property when it becomes surplus to their needs, whereas the
unexecuted Navy draft side agreement required sale at turnover. USEUCOM needs to
ensure that future residual value agreements with European host nations are formally
coordinated with all U.S. Military Departments that have facilities in the host nation.

Navy’s Unsuccessful Attempts to Negotiate
Residual Value
Navy real estate personnel began the residual value negotiation process with the
U.K. MOD in March 2007 and continued until September 2009. In June 2007, the Navy
issued a memorandum to USEUCOM requesting assistance in pursuing residual value for
its investments in the West Ruislip family housing it planned to return to the U.K. The
Navy memorandum specifically stated that USAFE officials did not coordinate before
finalizing the 2006 arrangement with the U.K. MOD. The negotiations included Navy
personnel traveling to the U.K. in March 2007 and meeting with U.K. MOD officials and
touring the housing facilities. U.K. MOD officials stated throughout the process that
because the housing was not planned for sale on the open market, there was no need for
immediate negotiations.

The Commander, Navy Region Europe, stated that the 2006 arrangement did not
specifically address the U.K. MOD’s retaining and using the housing for its own use
instead of selling it on the open market and entering into residual value negotiations.
U.K. MOD officials disagreed and reiterated that the trigger point for negotiating residual
value was the disposal of houses on the open market. Further, they stated that they
negotiated the arrangement over a number of years with USAFE officials on behalf of the
U.S. Government and they expected that concerns over circumstances before disposal on
the open market would have been raised and discussed before its completion.

Both Navy and U.K. MOD personnel performed several assessments to value the West
Ruislip site before and after renovations. Defense Estates, the U.K. MOD’s housing
assistance arm, performed a rent assessment based on comparables for the housing units
at West Ruislip in October 2003, before renovations. To obtain a reasonable estimate of
the value of the housing after the renovations, Naval Facilities Europe real estate officials
performed an additional estimate of the housing and lease value in September 2007. At
the Navy’s request, the District Valuer, London, performed a final market value analysis
in May 2008 of individual properties before and after the Navy’s renovations as well as
the potential development value of the West Ruislip site.

Table 4 identifies the results of the property value assessments performed for the West
Ruislip family housing units between 2003 and 2008.


                                              26

                  Table 4. West Ruislip Property Value Assessments
                               Annual Rent of                 Value of
         Assessment               All Units                   Property
October 2003 U.K. MOD
                                 $1.4 million           $12.4-$19.8 million*
(pre-renovations)
September 2007 Navy
                                 $2.2 million           $19.3-$30.9 million
(post-renovations)
May 2008 London District                         $48.5 million for land and buildings
                                Not evaluated
Valuer (pre-renovations)                         $25.5 million for land only**
May 2008 London District                         $51.9 million for land and buildings
                                Not evaluated
Valuer (post-renovations)                        $25.5 million for land only**
* This assessment did not include a value for the land. The methodology from the September 2007 assessment to use

rental amounts to value a property was copied to determine this value.

** Assessment includes value of land sold for redevelopment purposes. Existing housing would be demolished and 

removed.


In 2009, after more than 2 years of discussions, U.K. MOD officials continued to state
that they would not enter into residual value negotiations until they sold the housing units
on the open market. As a last-ditch effort in January 2009, Navy real estate personnel
attempted to obtain a token amount of rent of $475 per month per unit to be credited
toward the final settlement value once U.K. MOD sold the units. The token rent only
represented 23 percent of the market rental value of the housing as assessed in 2007.
Naval Facilities Engineering Command officials recognized that the U.K. MOD would
obtain value because it was planning to house its own military personnel indefinitely in
the houses. Again, the U.K. MOD response in March 2009 stated that the 2006
arrangement specifically stated that residual value would not be negotiated until the U.K.
sold the units on the open market. By contrast, U.S. residual value agreements with
Germany entitle the United States to residual value based on German reuse of the
property in cases where the property is not sold.

Navy Attempted to Transfer Followup Responsibility
to USAFE
In September 2009, the Navy issued a memorandum to USAFE to transfer responsibility
for discussions for West Ruislip housing. Navy officials stated that they did everything
they could, but were unable to obtain any consideration, and they suggested that USAFE
might be able to move negotiations forward. During a March 2011 meeting for this audit,
USAFE and USEUCOM officials stated that they had not conducted followup and did
not know the sales status or whether U.K. MOD personnel still occupied the housing
units.

When questioned why USAFE had not performed followup on residual value
negotiations, USAFE and USEUCOM officials stated that USEUCOM guidance specifies
that the discharge of real estate responsibilities from one Service component to another
must be mutually agreed to by both parties. USEUCOM officials also stated that USAFE
and Navy personnel did not mutually consent to transfer responsibility for residual value

                                                        27

negotiations, and therefore, neither party performed followup. USEUCOM
                                            Instruction 4101.01 states that USEUCOM is
    USEUCOM officials stated that           responsible for making decisions when
  USAFE and Navy personnel did not          unresolved matters exist, and USEUCOM
      mutually consent to transfer          never decided who had followup responsibility.
   responsibility for residual value        USEUCOM needs to officially assign
  negotiations, and therefore, neither      responsibility for following up on the sales
       party performed followup.            status of the West Ruislip housing facilities and
                                            for conducting residual value negotiations.

Navy May Never Recoup Its $20.3 Million Investment
At the time of this audit, U.K. MOD personnel occupied the housing units, and DoD
could only receive residual value based on a percentage of the sales price when and if the
U.K. MOD sold them. This could be up to 50 percent, but could also be nothing if the
site was completely demolished for redevelopment. Therefore, the Navy might never
recover a fair and equitable share of the $20.3 million invested to purchase and renovate
the 63 housing units.

Because it continues to use this like-new housing that the Navy turned over in September
2007 for its military personnel, the U.K. MOD has certainly benefited from the Navy’s
investment. However, the Navy is only entitled to residual value after the property is
sold, and the U.K. MOD does not have to sell the property until it determines that the
housing units are surplus. Because of these stipulations, when and if the U.K. MOD will
sell the property and how much it may have diminished from its like-new condition at
turnover are unclear.

When and if the property is sold, the Navy’s entitlement to residual value depends on
how the sale is structured. The U.K. MOD has repeatedly indicated that it expects the
property to be sold eventually for redevelopment, entitling the Navy to nothing. The
property assessment in 2008 shows that the property is far more valuable to sell with the
housing units reused ($51.9 million) than it is for redevelopment ($25.5 million). Either
type of sale results in a similar amount for the U.K. MOD, while resulting in significantly
different amounts for the Navy. Based on the 2008 property assessment, the Navy could
be entitled to up to $26 million less its share of selling expenses if the houses were sold
for reuse, but the Navy could be entitled to nothing if they were sold for complete
redevelopment.

Selling the property for demolition and redevelopment is not in line with the
U.K. MOD’s stated position that it is “trying to approach this whole deal in the interest of
both the Navy and the U.K. MOD, striking a reasonable balance of costs and benefits.”
This certainly does not balance the $20.3 million in costs the Navy incurred to purchase
and renovate the property with the benefits the U.K. MOD receives in housing for its
personnel from 2007 until it sells the property. At a minimum, when negotiating residual
value, USEUCOM needs to calculate and retain the estimated benefit that the U.K. MOD
receives from the free housing at West Ruislip from September 2007 through the sale of
the property.

                                             28

Recommendations, Management Comments, and
Our Response
C. We recommend that the Commander, U.S. European Command:

      1. Officially assign responsibility for following up on the sales status of the
West Ruislip housing facilities and for conducting residual value negotiations.

      2. Calculate and retain the estimated benefit that the U.K. Ministry of
Defence receives from the free housing at West Ruislip from September 2007
through the sale of the property for use in negotiating residual value.

       3. Require that future residual value agreements with host nations be
formally coordinated with all U.S. Military Departments that have facilities in the
host nation that would be affected by the proposed agreement.

USEUCOM Comments
The USEUCOM Chief of Staff neither agreed nor disagreed with the recommendations.
He stated that USEUCOM issued a task order on March 26, 2012, to USAFE to
accomplish Recommendations C.1 through C.3. He further stated that the next revision
of USEUCOM Instruction 4101.02, “Residual Value,” to be accomplished in
summer 2012, would require that future residual value agreements with host nations be
formally coordinated with all U.S. Military Departments that have facilities in the host
nation that would be affected by the proposed agreement.

Our Response
The comments from the USEUCOM Chief of Staff were responsive, and the planned
actions met the intent of the recommendations. We also reviewed the task order that
USEUCOM issued to USAFE on March 26, 2012, and determined that it met the intent
of our recommendations.




                                           29

Appendix A. Audit Scope and Methodology
We conducted this performance audit from March 2011 through February 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Testing Methodology
Controls Over Monetary and Nonmonetary Residual Value
Settlement Proceeds
Testing the usage of funds from monetary settlements involved the evaluation of all
Military Department expenditures from DOMFIRA within the last 5 years. We obtained
transaction records and supporting documentation for those records from DFAS. We
evaluated those transactions to ensure that they were properly supported and that the use
of the funds was allowable under Public Law 101-510, as amended, and as specified in
DoD FMR, volume 2B, chapter 8.

DoD document retention requirements and minimal DOMFIRA disbursement activity in
recent years limited our review of expended DOMFIRA funds. Specifically, the DoD
FMR, Volume 5, Chapter 21, requires that DoD organizations only maintain vouchers
and other supporting documentation for disbursements for 6 years and 3 months. While
the Air Force has consistently expended DOMFIRA funds over the past 5 years, the last
Army DOMFIRA disbursement occurred in 2008, and the Navy has not made a
DOMFIRA disbursement since 2006.

Testing the usage of funds from nonmonetary settlements involved a nonstatistical
sample of projects that used PIK funding. We evaluated nine of the 30 Army and
Air Force projects, which were in different stages of construction over the last 10 years.
We evaluated documentation to ensure that the projects were valid and properly approved
and that the documentation of the contracting procedures, such as modifications and
invoice approvals, was sufficient.

Testing the controls over unused monetary settlement proceeds involved examining
unliquidated obligations and unobligated funds in the DOMFIRA account according to
the June 30, 2011, SF-133, “Report on Budget Execution and Budgetary Resources.”
Testing the controls over unused nonmonetary settlement proceeds involved reconciling
IMCOM-E and USAFE tracking methods to settlement agreements.

Residual Value Settlement Process
Testing the residual value settlement process involved evaluating a nonstatistical sample
of 12 Army and Air Force facility closures at different stages of the residual value
settlement process over the last 10 years. This included seven facilities that were both
closed and settled and another five facilities that were closed but not yet settled. We

                                            30

chose these sites from a population of 160 Army and Air Force sites in Europe that closed
during the last 10 years.

We focused on facilities that we judged to have a higher chance of reutilization on the
open market, such as family housing and hospitals. We focused primarily on installation
returns in Germany because the majority of the residual value obtained from installation
closures came from Germany and future returns were scheduled for Germany. We also
included installation returns in the U.K. because there were significant recent and
ongoing settlement agreements. (For more information on the residual value process in
Germany and the U.K., see Appendix B.)

We evaluated the documentation from the closure as well as the documentation
supporting a residual value settlement if the site had already been settled. Documentation
of closures included transfer of the facilities documents, record of an inspection of the
facilities, an exchange of information on any environmental conditions and a record of
U.S. capital investments, which are all mentioned in DoD Instruction 4165.69.
Documentation of settlements included the official signed settlements, negotiation
minutes, and memoranda to notify OMB and Congress of the proposed settlements. We
evaluated the documentation to determine whether the closure and settlement were
properly documented.

Turnover of U.S. Navy Housing Facilities to the United Kingdom
in 2007
Evaluating the return of West Ruislip family housing units in the U.K. involved
interviewing personnel involved in the closure and attempted settlement process and
reviewing documentation related to the history of the site, the closure and return of the
site, and the attempts made to pursue a residual value settlement. The documentation
reviewed included documents related to the initial construction and lease, purchase and
remodeling, and closure and return of the housing units. We also reviewed
documentation related to the drafting of the Navy’s 1994 proposed side agreement and
USAFE’s 2006 memorandum of arrangement with the U.K. along with correspondence
of the Navy’s attempts to pursue a residual value settlement for the return of the West
Ruislip housing units.

Currency Conversion
During the audit, many of the records and transactions involved different currencies. For
proper context, this report presents all figures as dollars. We used historic currency
conversion rates at the time each event took place, to the degree that this could be
determined.

Sites Contacted and Visited
We contacted and visited several DoD organizations with responsibilities related to real
estate closure and residual value settlement and international agreements. We also
contacted and visited several DFAS centers responsible for maintaining the financial


                                            31

transaction records. See Tables A-1 and A-2 for the specific organizations we contacted
and visited.

                         Table A-1. Organizations Visited
         Location                        Organization or Office
 Norfolk, Virginia         Naval Facilities Engineering Command Atlantic
 Stuttgart, Germany        USEUCOM
 Heidelberg, Germany       USAREUR
 Heidelberg, Germany       IMCOM–E
 Wiesbaden, Germany        U.S. Army Corps of Engineers Europe District
 Kaiserslautern, Germany   USAFE
 Columbus, Ohio            DFAS

                         Table A-2. Organizations Contacted
          Location                       Organization or Office
 Arlington, Virginia          USD(C)/CFO, DoD
 Arlington, Virginia          DoD Office of the General Counsel
 Arlington, Virginia          DUSD(I&E)
 Naples, Italy                U.S. Naval Forces Europe
 Cleveland, Ohio              DFAS
 Indianapolis, Indiana        DFAS
 Limestone, Maine             DFAS
 Rome, New York               DFAS
 Kaiserslautern, Germany      DFAS

Use of Computer-Processed Data
We relied on computer-processed transaction data from the DFAS Cash History On-Line
Operator Search Engine, the Air Force General Accounting and Finance System-Rehost,
and the Operational Data Store; a storage system for the Standard Army Finance
Information Systems. We used the data to determine a sample of DOMFIRA transactions
for our review and to determine the accuracy of the DOMFIRA balances. We determined
data reliability by obtaining source documentation to support the system transactions.
We determined that the DOMFIRA transaction data were sufficiently reliable to
accomplish our audit objectives.

Use of Technical Assistance
We did not use technical assistance in conducting this audit.




                                            32

Prior Coverage of Residual Value Settlements
for Facility Closures
During the last 5 years, the Government Accountability Office (GAO) has issued two
reports discussing residual value for facility closures in Europe. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov.

GAO
GAO Report No. 10-745R, “Defense Planning: DoD Needs to Review the Costs and
Benefits of Basing Alternatives for Army Forces in Europe,” September 13, 2010

GAO Report No. 08-1005, “Defense Infrastructure: Opportunity to Improve the
Timeliness of Future Overseas Planning Reports and Factors Affecting the Master
Planning Effort for the Military Buildup on Guam,” September 17, 2008




                                          33

Appendix B. Residual Value
Settlement Process
The process for determining the residual value of a facility returned by the United States
to a host nation varies by the specific country. In those instances where the United States
is entitled to residual value compensation for its investments, the residual value
compensation is typically based on the fair market value of the properties regardless of
what was paid to build them.

Negotiating Residual Value Settlement Agreements
IMCOM-E and USAFE personnel are responsible for conducting residual value
negotiations based on policy guidance provided by the DUSD(I&E) and USEUCOM
personnel. Specifically, in conducting negotiations, IMCOM-E and USAFE personnel
should address, at a minimum:

    •	 schedule for departure of personnel and removal of equipment,
    •	 joint inspection of facilities,
    •	 disposition of United States facilities to be retained at the site,
    •	 exchange of information on environmental conditions,
    •	 transfer of facilities,
    •	 calculation of the current value of the facilities, and
    •	 estimated residual value.

Concluding Residual Value Settlement Agreements
At the conclusion of negotiations, IMCOM-E and USAFE personnel should prepare a
settlement package that summarizes the agreed-upon residual value and includes, at a
minimum:

    •	   date negotiations began and concluded;
    •	   present-day value of U.S. investments;
    •	   final negotiated residual value, including any PIK; and
    •	   justification for any difference between the U.S. investment and the negotiated
         residual value. 1

In addition, before IMCOM-E and USAFE personnel can conclude a settlement
agreement, DUSD(I&E) personnel must notify OMB of the proposed settlement if the
U.S. investment in the facility is greater than $10 million. Details on the overall residual
value settlement process are summarized in Figure B.




1
 IMCOM-E and USAFE personnel provide the residual value settlement package to USEUCOM
personnel, who then provide it to DUSD(I&E) personnel.

                                             34

Figure B. Residual Value Settlement Process




                    35

Residual Value Process for Germany
In Germany, the United States is entitled to residual value related to the return of any
facility for which an economic or military reuse can be found. 2 The value of the reuse
would typically be determined by the sale price of the facility on the open market, but in
the case of a reuse by a German government entity, an appraisal of fair market value
would be used. The value of the reuse, less any selling expenses, would be the base
residual value. Once the base residual value was determined, an allocation would be
performed, which would distribute the residual value to each of the buildings and to the
land.

On the basis of this allocation, the allocated residual value for each building would be
divided into different pools of money based on the parties that made investments in the
building. There would be one pool for U.S.-funded investments, another for normal
German-funded investments, possibly one for any North Atlantic Treaty Organization-
funded investments, and finally, a pool related to a special set of funding called Deutsche
Mark Occupation Mandatory Support (DMOMS). 3 By default, the residual value
allocated to each building would be included in the pool of whatever source of funding
built or constructed the building. However, if another source of funding made any of a
certain list of specific improvements to the building, then those pools would receive a
percentage of the building’s allocated residual value, and the pool of the funding that
originally constructed the building would receive the remainder. Examples of these
investments include:

    •   new roof tiles with insulation (7 percent),
    •   new windows with insulation glass (5 percent),
    •   upgraded bathrooms (8 percent), and
    •   upgraded heating supply (7 percent).

Other factors can be taken into account in negotiations as needed, including reductions of
the percentages for the building improvements if those improvements do not deserve the
full percentage due to age or other factors. Once the residual value for all the facilities in
a given settlement are allocated to the funding pools, any environmental remediation
costs are reduced by the total of residual value allocated to the DMOMS pool. If there is
any remaining environmental remediation cost, it is then offset against the residual value
allocated to the U.S.-funded pool.

For example, the Drake School complex was returned to the German government in
1995. The Drake School specifically consisted of two buildings: building 536 was


2
  Per the North Atlantic Treaty Organization Status of Forces German Supplementary Agreement,
article 52.
3
  DMOMS funding was a specific grant of money provided by the German government to the occupying
governments in the 1950s. Per the North Atlantic Treaty Organization Status of Forces German
Supplementary Agreement, Article 52, the United States is not entitled to residual value for facilities
constructed or improved with DMOMS funding, but may use any associated residual value to offset
environmental remediation expenses.

                                                   36

completely U.S.-funded, and building 533 was German-funded with U.S.-funded
improvements. Both buildings were sold, and after deducting selling costs, $0.9 million
was allocated to building 536, and $3.5 million was allocated to building 533. As
building 536 was completely U.S.-funded, the United States was entitled to the entire
$0.9 million as residual value compensation.

For building 533, the United States improved the roof (7 percent), windows (5 percent),
bathrooms (8 percent), and heating (7 percent) and installed school equipment (4 percent)
for a total of 31 percent worth of improvements. Therefore, the United States was
entitled to 31 percent of the $3.5 million allocated to building 533, which amounted to
$1.1 million in residual value compensation. In total, the United States was entitled to
$2 million as residual value compensation for the Drake School complex from the
German government. 4

Residual Value Process for the U.K.
In the U.K., the United States is only entitled to residual value compensation related to
the return and sale of family housing when family housing is returned. 5 The current
agreement between the United States and U.K. states that the residual value
compensation is determined based on the sale of the property. At the time of sale, the
base residual value compensation is determined as the proceeds of the sale 6 less the
selling expenses. The base residual value is then divided between the United States and
U.K. as follows:

    •	 For instances where the United States funded the family housing on the U.K.
       land:

             o	 where the housing is to be reused by the buyer, the United States receives
                50 percent of the base residual value;

             o	 where the family housing is to be redeveloped by the buyer but the utility
                infrastructure is to be reused, the United States receives 10 percent of the
                base residual value; and

             o	 where the family housing and utility infrastructure is to be redeveloped,
                the United States receives nothing.

    •	 For instances where the U.K. funded the family housing on its own land, but the
       United States made improvements to the housing:


4
  We did not assess the reasonableness of the negotiated residual value settlement agreement for the Drake
School complex.
5
  Per the “Memorandum of Arrangement Concerning the Settlement of Residual Value Claims for US-
Funded Housing and former US-occupied MOD Family Quarters Returned to MOD and Sold after 31
December 1999” as of November 2, 2006.
6
  If the sale is a bulk sale including more than the returned U.S. family housing (which could include other
premises or land), then this is the portion of the sale value attributable to the returned family housing.

                                                     37

          o	 where the site is being reused, the United States receives 18.75 percent of
             the cost of the investments made within 10 years before the sale.

          o	 where the site is being redeveloped, the United States receives nothing.

For example, as part of the Royal Air Force Chelveston and Royal Air Force
Molesworth-Brington family housing return to the U.K. MOD, USAFE documentation
indicated that the U.K. MOD sold 50 family housing units at Royal Air Force Chelveston
and 42 family housing units at Royal Air Force Molesworth-Brington. As a result,
USAFE received 50 percent of the net selling cost from the U.K. MOD, or $4.6 million,
from the U.K. MOD as residual value compensation for the Royal Air Force Chelveston
and Royal Air Force Molesworth-Brington family housing.




                                          38

Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD Comments




                    Click to add JPEG file




                                   39
Deputy Under Secretary of Defense for Installations and
Environment Comments




                    Click to add JPEG file




                                   40
Commander, United States European Command
Comments




                 Click to add JPEG file




                                41
Click to add JPEG file




               42
Click to add JPEG file




               43
